<html>
<title> - OVERSIGHT HEARING ON COMPLIANCE BY CERTAIN DEPARTMENTS WITH THE GOVERNMENT PERFORMANCE AND RESULTS ACT</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
    OVERSIGHT HEARING ON COMPLIANCE BY CERTAIN DEPARTMENTS WITH THE 
                 GOVERNMENT PERFORMANCE AND RESULTS ACT

=======================================================================

                           OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                     JULY 17, 1997, WASHINGTON, DC

                               __________

                           Serial No. 105-46

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 45-059                      WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

               Subcommittee on Water and Power Resources

                JOHN T. DOOLITTLE, California, Chairman
KEN CALVERT, California              PETER A. DeFAZIO, Oregon
RICHARD W. POMBO, California         GEORGE MILLER, California
HELEN CHENOWETH, Idaho               OWEN B. PICKETT, Virginia
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     SAM FARR, California
WILLIAM M. (MAC) THORNBERRY, Texas   ADAM SMITH, Washington
JOHN B. SHADEGG, Arizona             RON KIND, Wisconsin
JOHN E. ENSIGN, Nevada               LLOYD DOGGETT, Texas
ROBERT F. SMITH, Oregon              ---------- ----------
CHRIS CANNON, Utah                   ---------- ----------
MICHAEL D. CRAPO, Idaho
                  Robert Faber, Staff Director/Counsel
                    Valerie West, Professional Staff
                     Steve Lanich, Democratic Staff



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held July 17, 1997.......................................     1

Statement of Members:
    Doolittle, Hon. John T., a Representative in Congress from 
      the State of California....................................     1

Statement of Witnesses:
    Eaton, Dr. Gordon P., Director, United States Geological 
      Survey.....................................................    13
        Prepared statement of....................................    92
    Kladiva, Susan D., Acting Associate Director, Energy, 
      Resources, and Science Issues, Resources, Community, and 
      Economic Development Division, United States General 
      Accounting Office..........................................     9
        Prepared statement of....................................    48
    Martin, Dr. Robert L. San, Executive Director, Energy and 
      Resources Board, Department of Energy......................     3
        Prepared statement of....................................    22
    Martinez, Hon. Eluid L., Commissioner, Bureau of Reclamation, 
      United States Department of Interior.......................    11
        Prepared statement of....................................    62

Additional material supplied:
    Borchardt, Charles A., prepared statement of.................    28
    Deihl, Michael, prepared statement of........................    41
    Shafer, J. M., prepared statement of.........................    43
    Wright, Stephen J., prepared statement of....................    30
Communications submitted:
    Draft Strategic Plan for Bureau of Reclamation...............    66



    OVERSIGHT HEARING ON COMPLIANCE BY CERTAIN DEPARTMENTS WITH THE 
                 GOVERNMENT PERFORMANCE AND RESULTS ACT

                              ----------                              


                        THURSDAY, JULY 17, 1997

                  House of Representatives,
                   Subcommittee on Water and Power,
                                    Committee on Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:30 p.m., in 
room 1324, Longworth House Office Building, Washington, DC, 
Hon. John T. Doolittle (Chairman of the Subcommittee) 
presiding.
    Mr. Doolittle. We will call the Subcommittee to order. I 
apologize for the delay. I think we will be able to get through 
this now uninterrupted.

   STATEMENT OF HON. JOHN T. DOOLITTLE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Doolittle. The Government Performance and Results Act 
of 1993 is designed to promote a practical opportunity for the 
Federal Government today to put its house in order. The Results 
Act shifts the focus of Federal agencies away from traditional 
concerns such as staffing and activity levels and toward the 
overriding issue of results.
    The Act was not designed to emphasize internal function or 
agency output, but rather agencies need to look to their core 
responsibility as identified by legislative authorization. They 
need to identify goals and strategies to produce measurable 
results in attaining the vision and mission of the agency.
    A critical difference with this strategic planning effort 
is the fact that the agencies and the Congress are working for 
the American public, working with the American public, to 
develop these plans. Subsequently, the Congress will make the 
budget and appropriation cycles to the plan.
    Prior strategic planning activities have been largely 
internal to the agencies without reflecting the input of the 
Congress and the public. This is as close as we have come so 
far to subjecting government to the type of real focus which 
makes the private sector more efficient.
    We struggle every day with the responsibility to force 
government to live within its means, to craft and manage a 
government that is smaller, smarter, and more responsive. 
Instead of limiting its activities to those which the citizens 
cannot perform for them-

selves, their individual initiative, or private enterprise, 
this government has attempted to become all things to all 
people. In doing so, it is growing too expensive, too large, 
and too inefficient. The goal of the Results Act is to decide 
what government could do and develop a process to identify the 
overlap, the inefficiencies, and the areas where government has 
gone from aiding the citizens to hobbling the citizens.
    James Madison, I think, said it best in the Federalist 
Papers, ``It may be a reflection on human nature that such 
devices should be necessary to control the abuses of 
government, and frankly, a government is to be administered by 
men over men. The great difficulty lies in this. You must first 
enable the government to control the government and in the next 
place, to apply the controls set.''
    This is the reason the Results Act calls for consultation 
with the citizens and with the Congress. This is the reason we 
are looking for a clear reflection and statutory authority for 
the central elements of the strategic plans. This is the reason 
that the Act will tie the result of strategic plans to the 
budget appropriation cycle.
    In crafting a strategic plan, each agency needs to compare 
specifically its strategic plan to that of its counterparts to 
identify overlaps and to identify the unique role it should 
provide. We have too many agencies trying to do the same thing.
    A good deal of the blame for duplicate programs and vague 
missions is the Congress itself. Over the years, Congress has 
added new responsibilities without a close look at where they 
were creating overlap, but administrations and bureaucracies 
have followed with a vengeance. They had to do something to add 
to their numbers, to expand their responsibilities, to redefine 
themselves and their missions, and have indeed simply 
perpetuated themselves.
    But government is not without self-perpetuation. That is 
the main reason that we have laws and regulations prohibiting 
agencies from lobbying.
    The time has come for the Results Act to provide the 
mechanism to identify where we can eliminate the overlap, save 
the dollars, and force government to become more responsive.
    The Department of the Interior has decided to produce both 
individual bureau strategic plans as well as a DOI overview 
plan. The Bureau of Reclamation provided a draft strategic plan 
to the congressional staff on May 2, 1997. Chairman Young and I 
provided a written evaluation later in the month highlighting 
both procedural and substantive problems with that plan.
    The Bureau has provided a new plan and attached it to its 
testimony for this hearing. While it appears to respond to many 
of our concerns, it should be noted the timing of the response 
made it very hard to incorporate it into this hearing; however 
I am grateful to have the updated plan, and I would hope in the 
future it might be provided in a more timely basis, but I 
recognize the fact that it was provided.
    The USGS also provided a plan in early May and met with the 
congressional staff. They subsequently provided revisions, but 
there are substantial areas where we feel there remains an 
opportunity to improve the product.
    The Department of Energy chose to produce a single agency-
wide plan. Unfortunately, when they initiated the broad 
congressional consultation in May, they did not provide any 
draft of their plan. Since that meeting, they have produced a 
draft which relegates the power of the administrations to less 
than one paragraph. This result I find unacceptable.
    Subsequent conversations between Subcommittee staff and PMA 
staff alerted them of the need to participate in the process to 
provide some information to the Subcommittee. That process has 
begun with some material being submitted, but it is far from 
complete and must be incorporated in the DOE plan as a whole in 
some fashion.
    I would like to ask our witnesses to please rise and raise 
their right hands, and I will administer the oath.
    Do you solemnly swear or affirm under the penalty of 
perjury that the responses given and statements made will be 
the whole truth and nothing but the truth?
    Let the record reflect that each has answered in the 
affirmative, and I thank you very much. Please be seated.
    We have a commitment to get Dr. San Martin out of here by 4 
p.m., so I think we will alter the normal process of the 
Committee and invite him to give his testimony and any question 
or questions I may have I will address at that time, and then 
we will excuse you, Dr. San Martin, so you can keep to your 
schedule.
    You are recognized for your testimony.

  STATEMENT OF DR. ROBERT L. SAN MARTIN, EXECUTIVE DIRECTOR, 
        ENERGY AND RESOURCES BOARD, DEPARTMENT OF ENERGY

    Dr. San Martin. Thank you, Mr. Chairman. I certainly 
appreciate your assistance in that regard.
    Mr. Chairman, thank you very much for inviting the 
department to testify today on our compliance with the 
Government Performance and Results Act.
    I understand the Subcommittee's focus of interest is the 
department's GPRA activities as they relate to the Power 
Marketing Administration. In the Department of Energy's 
strategic planning process, I serve as the coordinator for all 
of the energy resources business line of the department, which 
does include the Power Marketing Administration.
    I would first like to provide you with a little bit of 
background on the GPRA strategic planning in general and DOE's 
planning process in particular. GPRA, as was passed by the 
Congress, does require cabinet level agencies to prepare 
strategic plans. This means that the Power Marketing 
Administrations are not responsible for submitting individual 
strategic plans under GPRA. Instead, their activities are 
addressed in the DOE-wide strategic plan.
    For this purpose, a strategic plan is a broad overview 
document that addresses the department from a top-down 
perspective. The department-wide plan does not attempt to go 
into detail about every departmental activity or program. After 
all, the Department of Energy has 127 distinct programs within 
its jurisdiction. If every program were covered in the top-
down, overall DOE strategic plan, the document would be very 
large so as to be unusable.
    The Power Marketing Administrations can and have produced 
their own strategic plans, plans that focus on their own 
individual missions as have the other programs within the 
Department of Energy. These power marketing administration-
specific documents are the place to find the detailed 
discussions of the PMAs' goals and objectives.
    Strategic planning, Mr. Chairman, by its nature as we are 
all finding out is a consultative process, one of formulation 
and consultation and revision. The working draft of the 
strategic plan issued last month by the Department of Energy is 
by no means the finished product. It was developed to provide a 
starting point for discussion and consultation. It can and will 
be altered significantly as the department continues to 
evaluate its draft plan, using input from the consultation 
process.
    In fact, the Department of Energy's GPRA strategic planning 
team has worked closely with the House of Representatives GPRA 
coordinating committee to ensure that the Congressional 
consultation process meets the needs of the House Members.
    To our knowledge, we have complied with their every request 
during this process for developing the GPRA strategic plan, and 
Mr. Chairman, we have heard from the staff that DOE's 
consultation process has been the best of the departments they 
dealt with.
    DOE is currently in the middle of the consultation process. 
We welcome the Subcommittee's comments, and will most assuredly 
give them serious consideration for inclusion in the final plan 
which will be submitted to the Congress on September 30, 1997.
    Not only is the department seeking congressional input 
during the consultation period, it is also providing its 
working draft to each cabinet agency, to hundreds and hundreds 
of interested stakeholder groups, and the general public 
available to them through the Internet. We are encouraging 
review, and we are encouraging suggestions and improvements 
from all of these sources.
    GPRA, Mr. Chairman, does require all of us to do more than 
just strategic plans. It also requires departments to produce 
annual performance plans and a performance report for each 
fiscal year on how well actual performance tracked the plan.
    The Department of Energy took the initiative and got a jump 
start on the Government Performance and Results Act performance 
plan requirement by issuing a performance plan with its fiscal 
1998 budget, one year ahead of the GPRA timetable.
    Mr. Chairman, the power marketing administrations have been 
active participants in the department's strategic planning 
process and conducted strategic planning of their own for 
several years. Their efforts dovetailed nicely with the rest of 
the department's activities in this regard.
    Therefore, Mr. Chairman, I would argue that the way to look 
at the strategic plans of the department are that the 
individual unit plans dovetail into the master umbrella plan 
that is the corporate plan for the Department of Energy.
    Sitting behind me today, Mr. Chairman, are Steven Wright, 
the vice president for national relations for the Bonneville 
Power Administration; Charles Borchardt, who is administrator 
of the Southeastern Power Administration; Michael Deihl, the 
administrator of the Southwestern Power Administration; and 
J.M. Shafer, the administrator of the Western Area Power 
Administration. These gentlemen are available and are prepared 
to answer specific questions about the strategic planning 
process and performance measures of the individual power 
marketing administrations.
    Thank you again for this opportunity to speak before you 
this afternoon. I and my colleagues will be happy to respond to 
any questions you or the other Subcommittee Members may have, 
Mr. Chairman.
    [The prepared statement of Robert L. San Martin may be 
found at end of hearing.]
    Mr. Doolittle. It looks like it is me. Dr. San Martin, I 
must apologize that I did not introduce you in the rush to get 
this hearing going, and I meant to. You are the executive 
director of the Energy and Resources for the Department of 
Energy, is that correct?
    Dr. San Martin. Yes, Mr. Chairman.
    Mr. Doolittle. And that is, as I understand it, that the 
PMAs report to you?
    Dr. San Martin. Mr. Chairman, what we have in the energy 
resources board of the department is a cross-cutting council 
that includes all of the energy offices within the Department 
of Energy. It includes the PMAs, but it also includes the 
programs of nuclear energy, fossil energy, energy efficiency, 
renewable energy. It includes the office of energy research. It 
includes the policy office. It includes the policy office. It 
includes our energy information administration, and what we do 
is try and deal with planning and strategic directional issues 
for the combined energy programs within the department.
    Mr. Doolittle. It was my understanding, Dr. San Martin, 
that up until this point, up until we contacted you recently, 
the PMAs had not actually done anything pursuant to the 
Government Performance and Results Act, that whatever planning 
went on was not with specific reference or pursuant to that 
Act, but was pursuant to other internal directives. Do I have 
that understanding correct?
    Dr. San Martin. Mr. Chairman, from firsthand knowledge of 
prior responsibilities I have had within the Department of 
Energy, I can assure you that the power marketing 
administrations and the individual organizational units have 
had a practice of strategic plans and setting up goals and 
objectives that they can measure themselves against.
    Mr. Doolittle. But that wasn't pursuant or with reference 
to the Government Performance and Results Act, was it?
    Dr. San Martin. Mr. Chairman, when we began our internal 
pilot in 1994 for the purpose of preparing for the Government 
Performance and Results Act, and we began the process of 
developing not only a strategic plan, but also of developing 
annual performance plans and performance reports which we have 
done internally, the power marketing administrations have most 
definitely been included in that.
    When I began calling together all of the energy 
organizations for the purpose of developing this particular 
GPRA strategic plan that you have before you, the power 
marketing administrations were included from day one.
    Mr. Doolittle. So then it is your contention that indeed 
these were pursuant to GPRA?
    Dr. San Martin. Yes, sir. I believe that all of those 
actions were all carried out for GPRA or for the spirit of 
GPRA.
    Mr. Doolittle. The spirit of GPRA. Tell me about the spirit 
of GPRA.
    Dr. San Martin. The intent that is embodied in the 
legislation, Mr. Chairman.
    Mr. Doolittle. It may be consistent with GPRA, but it was 
my belief that it was not carried out for GPRA. I might be 
wrong. Am I?
    Dr. San Martin. Mr. Chairman, from my personal experience 
within the department, when we began to generically speak about 
GPRA coming and we were beginning a number of processes, the 
people who were working that knew that they were to prepare 
for, when we actually fixed and formally went out and convened 
people for the purpose of producing the document that is 
required by GPRA, which was again earlier this year, that is 
the point that most people would conclude was the fixed time 
when the focus was exclusively on GPRA.
    Mr. Doolittle. Could you provide to the Subcommittee some 
written documentation that provides the link between their 
planning and GPRA?
    Dr. San Martin. Certainly.
    Mr. Doolittle. Let me ask you this. What percentage of the 
employees of the Department of Energy are employed in the power 
marketing administrations, the Federal employees?
    Dr. San Martin. The Department of Energy has close to 
18,000 Federal employees and 110,000 dedicated contractor 
employees, and of the Federal employees, the Power Marketing 
Administration represents a little over 20 percent, if I recall 
correctly.
    Mr. Doolittle. With over 20 percent of your Federal 
employees involved in PMAs, how is it that in the strategic 
plan of DOE that they get just a few sentences?
    Dr. San Martin. Mr. Chairman, in many ways, the operation 
of the power marketing administrations serve a very important 
function in the service and the energy that they deliver and 
market. In many ways, it operates as a business in the conduct 
of their work. In that regard in operating as a business and 
striving to deliver reliable services at the lowest possible 
cost, a good deal of what they do is prudent and cost effect 
management of the resources they are entrusted with, and that, 
Mr. Chairman, is also covered in the corporate management 
section without reference to specific areas in the strategic 
plan.
    When you get down to specific energy matters and the energy 
system, when we created an envelope for how all of the pieces 
of the Department of Energy fit, the power marketing 
administrations and how they fit in the electric sector and the 
critical function that they provide in support and stability of 
our transmission system was the highlight of their contribution 
from a strategic perspective, and therefore, that was the area 
that was highlighted in that overall strategic plan.
    Mr. Doolittle. It just seems strange to me that since over 
one-fifth of the entire Federal employee work force is employed 
in PMAs, that it wouldn't get more focus than it got, and I 
guess I am expressing to you the opinion that I think it ought 
to get some additional focus.
    Dr. San Martin. Mr. Chairman, your recommendation is duly 
noted, and I will certainly carry that back as this plan is 
revised because we expect to have a revision of this at the 
beginning of August and we will come back to the Congress again 
in hopes of getting more comments before we go into a final 
draft after that.
    Mr. Doolittle. Let me ask you, are there programs or 
activities that need to be eliminated, created, or restructured 
to achieve the goals outlined?
    Dr. San Martin. Do you mean the plan that is being 
commented on now, Mr. Chairman?
    Mr. Doolittle. Yes.
    Dr. San Martin. The plan that is being commented on right 
now is a plan that looked at trying to carefully identify and 
relate to all of the important broad areas of the department 
and all of the areas that are required of the department by 
legislation. I think we have addressed that, and the plan is 
before you at this time.
    It does not give you an itemized list to respond to the 
question you just asked.
    Mr. Doolittle. Are you aware of such programs or activities 
that will need to be eliminated, restructured, or created?
    Dr. San Martin. I am not at this particular point in time, 
Mr. Chairman.
    Mr. Doolittle. I know this is a first-time experience for 
all these agencies going through this, but it seems to me that 
it is a worthwhile endeavor if we can actually improve the 
bottom line of all the taxpayer money being spent through 
governmental activities, namely, the results.
    May I just ask you, and I don't know your background, but 
have you been employed in the Department of Energy for a number 
of years?
    Dr. San Martin. Yes, sir, Mr. Chairman. I joined the 
Department of Energy in 1978.
    Mr. Doolittle. I was correct in the beginning. It is my 
belief that the people who work in these agencies are the ones 
many times who are most aware where the duplication is or where 
the inefficiencies are, and oftentimes, they have an idea of 
ways things could be carried out that would improve the 
results, because they are most familiar with the activities.
    I just wonder if you would care to comment on your 
prognosis for seeing something positive coming out of this 
process?
    Dr. San Martin. I would like to very much, Mr. Chairman. I 
have two major comments. No. 1, I think that GPRA is very good 
for the Federal Government and will be good for the Department 
of Energy, and I personally genuinely support everything that 
is intended in the legislation.
    Reflecting what I have seen over the last almost 20 years, 
I think that we are genuinely going through a learning process, 
and if we have the opportunity to be able to do this for 
another two or three cycles, because we will learn from each 
other and we will get much better at doing this, I think we 
will have done a real service to the public.
    At the same time that we are going through this learning 
experience, I think part of that is going to be how we use the 
best information that we have available, because in many ways, 
if you look at a very, what should I say, corporate strategic 
plan and then you evaluate that with all the strategic plans 
that exist with the operating units, I think one gets the very 
best picture of how well one is truly documenting and 
explaining what functions and actions and results are actually 
being carried out.
    Now, you were also asking the question about what can we 
potentially do to eliminate less-than-desirable functions or 
less-than-efficient functions within the department, and I 
believe we have to be very vigilant in looking for this at all 
points in time, but I must point out that it was only about 3 
years ago that in the Department of Energy, we went through a 
very extensive bottoms-up strategic alignment process where we 
identified a considerable amount of actions, programs, and 
activities that we felt were either no longer appropriate or 
were significantly inefficient or were not sufficiently 
productive, and we changed things and eliminated quite a few 
things, and in that regard, I think we made some big steps 
forward in carrying out what is intended by the legislation, 
but I think there is always the opportunity to look harder and 
do the job better.
    Mr. Doolittle. The Southeastern Power Administration's 
strategic plan for 1997 contains the goal that Southeastern 
will increase project reliability from 87 percent to 95 percent 
by 2002, which would be a very commendable goal to achieve. The 
second and third objectives specifically state that 
Southeastern will encourage its customers to lobby for funding.
    Now, I don't know whether that violates the law or not, but 
it seems to me that it is awfully close to that. Could I invite 
your comment on that portion of their plan?
    Dr. San Martin. Mr. Chairman, may I call on my colleague?
    Mr. Doolittle. Yes. Would you identify yourself and be 
sworn in as a witness?
    Mr. Borchardt. Yes. I am Charles Borchardt, Administrator 
for the Southeastern Power Administration.
    Mr. Doolittle. Mr. Borchardt, would you please raise your 
right hand?
    Do you solemnly swear or affirm under the penalty of 
perjury that the responses given and statements made will be 
the whole truth and nothing but the truth?
    Mr. Borchardt. Yes, I do.
    Mr. Doolittle. Thank you. Go ahead and give us your 
comment.
    Mr. Borchardt. Yes, sir. I think what we were talking about 
at that time was the general statement that we would try to 
seek alternative funding and have the customers work with the 
Corps of Engineers to obtain funds directly to eliminate some 
of the requests for appropriations that the Corps was going 
through.
    Mr. Doolittle. From previous hearings, Mr. Borchardt, I 
know we have discussed the reliability issue, and I know it is 
important that you receive proper funding for the operation and 
maintenance of the power generating facilities, but I was a 
little concerned to read the emphasis on lobbying, and I would 
like to have that clarified.
    Mr. Borchardt. It was an unfortunate use of the word. It 
was not meant to be lobbying per se but to find ways of doing 
alternative funding and thus eliminate additional 
appropriations. This would be primarily on the Corps side, but 
it would reduce our rates.
    Mr. Doolittle. I would like to thank you two gentleman for 
being here. Dr. San Martin, I note that your hour has almost 
arrived, and with that, we will excuse you and carry on with 
the remaining witnesses.
    Dr. San Martin. Thank you very much for being able to 
assist me, Mr. Chairman, and I would be very happy to work with 
you and your staff on any followup.
    Mr. Doolittle. Thank you. I appreciate that. Our next 
witness will be Susan D. Kladiva, Acting Associate Director; 
Energy, Resources, and Science Issues, from the United States 
General Accounting Office. Ms. Kladiva, welcome.

   STATEMENT OF SUSAN D. KLADIVA, ACTING ASSOCIATE DIRECTOR, 
 ENERGY, RESOURCES, AND SCIENCE ISSUES, RESOURCES, COMMUNITY, 
   AND ECONOMIC DEVELOPMENT DIVISION, UNITED STATES GENERAL 
                       ACCOUNTING OFFICE

    Ms. Kladiva. Thank you, Mr. Chairman. I am pleased to be 
here today to participate in the Subcommittee's review of the 
efforts of the Departments of Energy and Interior to comply 
with the requirements of the Results Act.
    As agreed, I will comment on the overall quality of the 
draft strategic plans of Energy and the Interior and provide 
specific comments on the Energy plan as it relates to the Power 
Marketing Administrations, and Interior's plan in three key 
areas, first, the Bureau of Reclamation's mission; second, the 
coordination of cross-cutting program activities at the Bureau 
and the U.S. Geological Survey; and third, the challenges that 
both will face in providing reliable information for measuring 
results.
    It is important to recognize that the final plans are not 
due to the Congress until September and that the Results Act 
anticipated that it may take several planning cycles to perfect 
the process, and that the final plans will be continually 
refined as future planning occurs. Thus, my comments reflect a 
snapshot of the plans in mid-June when they were submitted to 
the Congress.
    First, with respect to the Department of Energy's draft 
plan, while we found that the agency has made progress in 
developing its plan, the draft plan does not provide the 
Congress with complete information for its consultation with 
the agency. Energy has developed a plan that is appropriately 
focused on a department-wide mission that transcends the 
interest of individual programs. Accordingly, the document 
barely mentions PMAs specifically.
    However, of particular concern to this Subcommittee, it 
does not identify programs and activities such as those of the 
PMAs that are cross-cutting or similar to those of other 
agencies. The PMAs' function of marketing electricity relates 
to the functions of the Bureau of Reclamation and the U.S. Army 
Corps of Engineers that produce the electricity that the PMAs 
market. However, the plan does not recognize that the 
achievement of Energy's strategic goals will depend in part 
upon its coordination with these agencies. To ensure that the 
PMAs, the Bureau, and the Corps are moving toward mutually 
reinforcing goals and objectives, we believe it is important 
for Energy to address the coordination issue of its plan.
    Turning to Interior's draft plan, a significant amount of 
work still needs to be done before Interior's plan can fulfill 
the requirements of the Act. Since programs within Interior are 
carried out primarily through its eight major autonomous 
subagencies, Interior chose to implement the Act by developing 
an overview plan for the department as a whole and requiring 
each of the subagencies to develop its own plan.
    Three key areas are of special interest to this 
Subcommittee. First, the Bureau's mission. Although the mission 
statement is comprehensive and covers the major statutory 
responsibilities, this Subcommittee and the Bureau disagree 
about the focus of its basic mission. The Subcommittee's May 29 
letter to the commissioner noted that the Bureau seems to be 
abandoning its original mission of developing water resources 
in favor of managing water resources.
    You questioned whether the Bureau is the appropriate agency 
to be carrying out the activities related to this management 
mission. The mission of the Bureau, which was established 95 
years ago, has evolved and changed over time. Its present-day 
mission is a legitimate and suitable subject for negotiation. 
It is the basic premise from which the remainder of the plan 
flows. The consultation process established by the Results Act 
provides an ideal framework for discussing such issues.
    Next, cross-cutting program activities. As with Energy, 
Interior's draft plan generally does not identify programs and 
activities that are cross-cutting or similar to those of other 
agencies, nor does it indicate that any coordination has 
occurred.
    For example, both the Bureau and the Geological Survey as 
well as other agencies such as the Environmental Protection 
Agency address environmental water quality issues. Cross-
cutting program efforts present the logical need to coordinate 
efforts to ensure that goals are consistent and, as 
appropriate, that program efforts are mutually reinforcing.
    We have found that when this is not done, overlap and 
duplication can undermine efforts to establish clear missions 
and goals.
    Finally, identifying program measures and ensuring the 
development of reliable financial program information to 
measure the progress under their strategic plans will be major 
challenges for Interior and all of its subagencies. Interior 
acknowledges the challenge, and to its credit, has included in 
its department-wide draft strategic plan a general goal for 
improving its financial and performance reporting systems to 
better support the implementation of the Results Act.
    In summary, both the Departments of Energy and the Interior 
have made progress toward meeting the requirements of the Act. 
The continuing consultation process provides the opportunity 
for this Subcommittee to ensure first, that he subagencies' 
priorities are consistent with those of the Congress, and 
second, that the functions are complementary, appropriate in 
scope, and not duplicative.
    Mr. Chairman, that concludes my statement, and I will be 
pleased to answer any questions that you may have.
    [The prepared statement of Susan D. Kladiva may be found at 
end of hearing.]
    Mr. Doolittle. Thank you very much. We will proceed next 
with the remaining two witnesses, and then have questions of 
the remainder of the panel.
    Our next witness is the Honorable Eluid Martinez, 
Commissioner of the Bureau of Reclamation. Commissioner, I am 
pleased to have you here and recognize you for your testimony.

 STATEMENT OF HON. ELUID L. MARTINEZ, COMMISSIONER, BUREAU OF 
       RECLAMATION, UNITED STATES DEPARTMENT OF INTERIOR

    Mr. Martinez. Thank you, Mr. Chairman, and thank you for 
the opportunity to provide testimony on the status of the 
Bureau of Reclamation's compliance with the Government 
Performance and Results Act.
    With your permission, I would like to summarize my comments 
and have the full text of my prepared statement entered into 
the hearing record.
    Mr. Chairman, the Bureau of Reclamation has taken its 
responsibilities in this process seriously. GPRA has provided 
the Bureau an opportunity to re-examine its role and will 
provide Congress the opportunity to consider the role of the 
Federal Government in meeting contemporary water needs in the 
west.
    Because western water supplies are limited and because 
Reclamation supplies water to some 10,000,000 acres of land in 
the west and over 30,000,000 people, our actions are important 
in addressing the broad range of competing demands for water in 
the west.
    To address these demands for water, we are involved in a 
number of initiatives, including the management of water at our 
projects. We are assisting communities through a number of 
activities. We provide technical assistance for water 
conservation. We are helping to demonstrate and implement the 
benefits of water reclamation and re-use, and where appropriate 
and in cooperation with States, tribes, local, and other 
entities, Reclamation is and will encourage the development of 
consensus-based structural and nonstructural economically 
justified and environmentally sensitive water supply 
initiatives.
    We will continue to work with Congress and other Federal, 
State and local governments, Native Americans, and the general 
public to meet the water and related resource needs of the 21st 
century.
    We realize that this process is an ongoing initiative. On 
April 17, Reclamation published in the Federal Register a 
notice of availability of its draft strategic plan. We posted a 
copy of the plan on our home page, and that plan continues to 
be on the Internet.
    Through the months of April and May, Reclamation held 
numerous meetings in States throughout the west and in 
Washington, DC, on its April draft plan. We met with Federal, 
State, and local government agencies. We met with water users, 
power users, Indian tribes, conservationists, academics, and 
others, and on May 2, Reclamation received input from this 
Subcommittee on our initial draft, and Reclamation is aware and 
is responding to comments made by yourself and Chairman Young 
on these issues.
    Mr. Chairman, these meetings were productive. In fact, as a 
result of the six meetings held in Washington, Reclamation now 
hosts regular monthly meetings in Washington with interested 
parties. The next such meeting is scheduled for July 23.
    Based on the comments received to date, our April 17 draft 
has undergone what I consider to be significant changes. Next 
week, Reclamation's plan will go to the Department for its 
review. Between now and August 15 when the plan is sent to the 
Office of Management and Budget, it is my hope that Reclamation 
will have another opportunity to meet with the Subcommittee to 
receive your concerns. We will continue our meetings in 
Washington with stakeholders, and will continue to receive 
comments from interested parties.
    The revised plan will be placed on the Internet, and we 
will transmit the plan to all the western Governors in 
reclamation States for the comments and input. The report is 
due to Congress on September 30.
    Mr. Chairman, this hearing is both timely and appropriate. 
Reclamation's strategic plan continues to be an effort that was 
begun in the late 1980's. Ten years ago, this Subcommittee had 
a congressional oversight hearing on the reorganization of the 
Bureau of Reclamation, and it focused on a document entitled 
Assessment 1987, and I raise this issue, and you might in your 
time have an opportunity to read this document. It is about 131 
pages, and I have read it over the last few weeks, and it sheds 
some interesting information on the Bureau of Reclamation.
    At that time, Assistant Secretary James Ziglar testified 
before the committee, and made some remarks that remain 
appropriate today. I would like to quote one of his comments.
    He said that the Bureau of Reclamation's original mission 
of reclaiming the west was relatively close to being 
accomplished in that there were very few opportunities left to 
build large dams and reservoirs. However, the Bureau's general 
mission of providing an adequate supply of water was far from 
being accomplished.
    He went on to say that to accomplish this, the Bureau must 
change from a construction-company mentality to a resource-
management type of agency.
    Mr. Chairman, I bring this historical reference to your 
attention to point out that the Bureau of Reclamation, 
Congress, and the stakeholders have been discussing the 
contemporary mission of the Bureau of Reclamation for more than 
a decade through different administrations.
    I and Reclamation look forward to working with you and this 
Subcommittee to continue to debate this important issue. Thank 
you again for the opportunity to testify, and I would be 
pleased to answer any questions you might have.
    [The preparee statement of Eluid L. Martinez may be found 
at end of hearing.]
    [Draft Strategic Plan for Bureau of Reclamation may be 
found at end of hearing.]
    Mr. Doolittle. Thank you. Our next witness will be Dr. 
Gordon P. Eaton, Director of the United States Geological 
Survey. Mr. Eaton, I invite you to give your testimony.

   STATEMENT OF DR. GORDON P. EATON, DIRECTOR, UNITED STATES 
                       GEOLOGICAL SURVEY

    Mr. Eaton. Thank you, Mr. Chairman. Like my colleagues here 
at the witness table, I very much appreciate this opportunity 
to discuss with you the Geological Survey's draft of its 
intended plans and accomplishments under the Government 
Performance and Results Act.
    In your letter of invitation to Secretary Babbitt, you 
expressed specific interest in having us address several 
different topics, but before addressing these, I would like to 
share some background information about the USGS strategic 
planning efforts in general and GPRA planning in particular.
    In June 1996, the Geological Survey concluded an 18-month 
strategic planning effort with the publication of a paper 
entitled Strategic Plan for the U.S. Geological Survey, 1996-
2005, and that document ably expressed the vision and strategic 
direction of the USGS, but it did not provide statements of 
goals and objectives as called for by GPRA.
    For that reason, a revised plan, Strategic Plan for the 
U.S. Geological Survey for 1997 to 2005 carries forward much of 
what was laid out in the June, 1996, publication, but adds GPRA 
goals and objectives as well as addressing the programs of the 
National Biological Service, which at the direction of the 
Congress, had become the Survey's Biological Resources division 
on October 1 of last year.
    This new document has been revised as of June of this year 
to reflect comments provided both by departmental staff and as 
a result of preliminary consultations with congressional staff, 
including members of the staff of this Subcommittee.
    The U.S. Geological Survey also participated in the pilot 
phase of GPRA implementation through the National Water Quality 
Assessment Program. Through this early experience, we have 
learned and are learning a lot, including, for example, the 
fact that it is possible for different measures of success to 
have different significance depending on the interests and the 
different perspectives of the reviewers. Also, for performance 
plans, performance measures, and critical results to produce 
desired outcomes, there must be ongoing communication between 
and among performers and reviewers.
    Suffice it to say it has been a significant challenge for 
the USGS as a science agency to develop results-oriented 
performance measures that will allow ourselves and others to 
determine whether or not specific goals are being met.
    Some of the difficulties that we face, and these are shared 
with other science agencies in the Federal Government, include 
the following.
    In most cases, a minimum of 5 years is required to fully 
realize outcomes from much long-term research, although 
summaries might not yield meaningful and strategic results for 
as much as ten or more years.
    At an even more fundamental level, we often cannot 
anticipate whether our research findings and facts will be used 
immediately by a client or what the results might be. In other 
words, if we are attempting to measure outcomes, in many cases, 
the results of our work lead to outcomes that are in the hands 
of others, and not ourselves.
    With these brief concerns as background, let me turn now to 
the Subcommittee's four specific areas of interest.
    The first is the unique responsibilities of the Geological 
Survey that define its mission. This mission can be very 
succinctly summarized as providing the Nation with reliable, 
impartial information to describe and understand the objects, 
the phenomena, and the processes at work upon and within the 
earth.
    This information is used by others to minimize loss of life 
and property from natural disasters to manage water, 
biological, energy, and mineral resources, to enhance and 
protect the quality of life, and to contribute to the wise 
economic and physical development of the assets of the nation.
    Within this overall mention of the USGS, the mission of the 
water resources division is to provide reliable, impartial, 
timely information needed to understand the nature of water 
resources.
    Water Resources Division activities include data 
collection, assessments of water resources, applied research, 
basic research and development for the purpose of solving 
water-related problems.
    In summary, the Water Resources Division of the U.S. 
Geological Survey is a primary source of scientific information 
on one of the nation's most important and vital natural 
resources, water. This responsibility fulfills a unique Federal 
role by providing standardized, objective information to the 
entire country through the collection of long-term hydrologic 
data, interpretive reports, and the development of new 
measurement and analytical methods.
    Historically, the USGS has been very active in coordinating 
its work with other agencies. The newly formed advisory 
committee on water information convened by the USGS brings 
together 35 water resource organizations at all levels of 
government, the private sector, universities, and public 
interest groups as well.
    Reimbursable programs with numerous Federal agencies 
provide an acute awareness of current and future needs of water 
information that are reflected in the USGS strategic plan.
    One example of this process is the watershed and river 
system management program, a cooperative, formal venture 
between the USGS and our colleagues in the Bureau of 
Reclamation. The program supports the development and 
application of data-based decisions for systems, which in turn 
assist resource managers at Federal, State, and local levels, 
and the result has been the postulation of a specific GPRA 
measure.
    In addition to such programmatic interactions, the USGS has 
established a number of formal bilateral committees. The Survey 
participates in the interagency research roundtable and the 
Natural Resources Performance Management Forum, Federal agency 
groups sharing experiences in implementing GPRA.
    We see great value in GPRA, and despite the concerns that I 
have expressed, I think that by working together in 
consultation with the Congress, we can find a way in fact to 
make GPRA meaningful and helpful to our conduct where 
appropriate.
    Again, Mr. Chairman, I appreciate the opportunity to appear 
before you this afternoon.
    [The prepared statement of Gordon P. Eaton may be found at 
end of hearing.]
    Mr. Doolittle. Thank you very much. One of the comments by 
the General Accounting Office would seem to be common to all 
three of the departments or agencies represented here today was 
the failure to identify programs and activities that were 
cross-cutting or similar to those of other agencies.
    I just wondered if any of you would care to offer your 
thoughts as to why that seems to be a missing element in your 
own plan, or if it is a missing element basically in all three 
that are represented here today.
    Maybe we should begin with our witness from the GAO and ask 
you if you would offer your thought on that.
    Ms. Kladiva. For one thing, Mr. Chairman, I think that 
agencies in going through this process right now are focused on 
themselves and they are not thinking beyond their own mission 
sphere in terms of what they can accomplish on their own versus 
what they must accomplish by working with other government 
agencies.
    As we pointed out with the PMAs, for example, they market 
the electricity, but in order for them to market electricity, 
they have to have the power and coordinate with the Bureau of 
Reclamation and with the Corps of Engineers.
    In looking at the strategic plans of those two entities, 
they do not appear to have coordinated with one another, 
although individually, each has some performance measures that 
would relate to the functions that are important to the other.
    When we talk about coordination, we don't mean just putting 
the document out there for comment and for others to see. What 
we mean is sitting down and discussing and reaching agreement 
so that when you look across the plans, where activities are 
related, you see a consistent pattern in the performance 
measures, the goals and objectives so that you have some degree 
of confidence that they are actually going to be able to 
fulfill that goal or objective by working together.
    Mr. Doolittle. I appreciate that. Mr. Borchardt, I can ask 
him, but let me ask the two of you that remain with your 
agencies.
    Have you had an opportunity to go sit down and compare 
notes on these similar responsibilities?
    Mr. Martinez. Mr. Chairman, I think if I may comment, the 
bureaucracies have a tendency to respond to the issues that 
they need to respond to, and I think that if that would have 
been--my understanding is that the GPRA Act does not require 
that kind of coordination, although I do believe that it is an 
important and integral part of this whole process.
    Probably one of the reasons, and I am speaking as an 
individual, one of the reasons you are not seeing these plans 
for this is because it is not one of the six or seven 
requirements. I do believe that there is quite a bit of 
coordination taking place.
    In my particular instance, I have attended several meetings 
by other agencies going through their GPRA plans, and I know 
that that coordination is taking place and is taking place 
inside the Department of the Interior.
    I think that it is through these type of hearings that 
raise these issues that make the agency more aware that this is 
an issue that the Congress is concerned about, but I think 
there is that consultation taking place.
    Now, let me raise another issue here that I think needs to 
be raised, that notwithstanding the fact that you have 
different agencies involved in similar activities to relate to 
the testimony, the comment that was made here to my left just a 
minute ago, is that even though you might have EPA, the Bureau 
of Reclamation, the BIA, and the Department of Energy all 
involved in common issues which might be water quality, it 
would be in my opinion very difficult for all of them to reach 
a common goal, because their missions and their 
responsibilities might differ. But where they can have common 
goals, you have to identify the duplication, and that is just 
an observation that I volunteer as an individual, Mr. Chairman.
    Mr. Doolittle. I didn't quite follow the last part of your 
statement. You said where they do have common goals?
    Mr. Martinez. What I am saying is that the EPA is a 
regulatory agency; the Bureau of Reclamation is a management 
agency. We both have common interests in certain issues, but we 
might not necessarily agree on the same outcome of that issue 
was more or less what I am trying to say.
    So it might be difficult to set four agencies around a 
table that are all involved with water quality to all say this 
is our common goal, because they spread out on certain issues. 
In other words, they don't all agree on certain issues.
    Mr. Doolittle. You may have different goals, and I 
understand that may produce a different conclusion, but I guess 
from your perspective, from your own personal knowledge and 
experience, are there some areas that are duplicative, perhaps 
through identification of these different common 
responsibilities that might result in some improvement in 
efficiency or in some recommendation to Congress for 
legislation where it could be done administratively to clarify 
these different missions?
    Mr. Martinez. Mr. Chairman, I guess the idealistic answer 
would be that all Federal agencies don't duplicate efforts, but 
that in practicality is not the answer.
    It appears to me that the process that allows agencies to 
see what other agencies are doing can lead to some improvement.
    With respect to the Department of the Interior agencies, we 
try to coordinate as much as possible and avoid the 
duplication.
    Mr. Doolittle. Maybe that is an illustration of how it 
could work between agencies that aren't in the same department.
    Ms. Kladiva, do you have a comment on that?
    Ms. Kladiva. Yes. Mr. Chairman, I would like to comment on 
the statement that the identification of cross-cutting issues 
is not required by the Results Act.
    Specifically, one of the six requirements of the Results 
Act is that agencies are to identify key factors affecting 
achievement of general goals and objectives, and within the 
guidance of the Office of Management and Budget, Circular A-11 
specifically indicates that among these key factors that should 
be considered is that achievement of goals can also depend upon 
the action of Congress, other Federal agencies, State, local 
governments, and non-Federal entities. Key factors influence 
goal achievement directly and significantly and potentially 
could invalidate the assumptions underlying the goal.
    Accordingly, the OMB guidance says that the strategic plan 
should briefly discuss and describe each key external factor, 
indicate its link with a particular goal, and describe how the 
achievement of the goal can be affected by that factor.
    On that basis, when you have a number of agencies that have 
missions, for example, in water quality, unless those agencies 
sit down and talk with each other and sort out what the 
relative responsibilities are and where those responsibilities 
overlap, how do you identify where there is duplication?
    If each agency approaches this as though what they are 
doing is fine, freestanding, and that they don't need to 
coordinate with other agencies, that is where you get a 
potential for duplication and waste.
    Mr. Doolittle. May I just ask you--I am looking at page 2 
of your testimony under the subheading background, and you list 
the six elements the Act requires. Which one of these six does 
this fall under?
    Ms. Kladiva. Of the six, I am not sure that--it is number 
5.
    Mr. Doolittle. Number 5, identification of key factors, 
externally to the agency and beyond its control that could 
significantly affect achievement of the strategic goals, and 
then you referred to a----
    Ms. Kladiva. The OMB circular which implements the Act for 
the executive agencies. It is Circular number A-11, part 2, 
which was issued in June 1996.
    Mr. Doolittle. Let me just ask our witnesses, are you 
gentlemen familiar with this circular that she is referring to?
    Mr. Eaton. I am in general, but I have staff who are 
familiar with it in detail.
    Mr. Doolittle. And Commissioner, is it the same situation 
for you?
    Mr. Martinez. I haven't read the individual circular, but I 
am aware of its existence.
    Mr. Doolittle. Let me just ask you, if you would, to get a 
copy of that or maybe have your staff get a copy of it and see 
if you can agree with Ms. Kladiva that the coordination is in 
essence part of the requirements of GPRA. Perhaps that is 
something we need legislatively to clarify in the future.
    Mr. Martinez. There is no question. I think that 
coordination is important, and I don't want to take up time 
debating that issue, because I find it interesting that General 
Accounting Office says all six conditions have been met, but if 
you have not met condition number 5, there seems to be an 
inconsistency, because they are saying all the conditions have 
been met, yet the plan is deficient because there is no 
coordination.
    To me, there is a bit of a logic problem there, but we 
should just leave that to the side and maybe Mr. Eaton might 
want to shed some light on this.
    Mr. Eaton. Mr. Chairman, I would appreciate an opportunity 
to comment on that.
    The absence of any reference to that in the GPRA report 
does not mean that there is no coordination. There is in fact 
extensive coordination.
    In one area that is cited here, the area of water quality, 
there is formal and frequent coordination and communication 
with other agencies. I think the problem here is that the 
instructions in developing the GPRA plan were not explicit 
enough in asking to have those put forward.
    Life did not begin with GPRA. We have been in this business 
a long time and we talk regularly and meaningfully with other 
agencies at the Federal level, the State level, and the local 
level.
    The GAO did not come to us and ask that question. I wish 
that they had.
    With respect to coordination across the whole of Interior, 
it is addressed by a variety of means in addition to that of 
strategic planning. Interior has coordinated its strategic 
planning process through a formal strategic planning steering 
group and through existing management coordination groups such 
as the Interior Management Council.
    Interior has also been a driving force in the Natural 
Resources Performance Management Forum. This forum was 
established by the Bureau of Land Management, an Interior 
bureau back in May 1995 and include the Fish and Wildlife 
Service, the Forest Service which is part of Agriculture as you 
well know, and the National Park Service. The Forum facilitates 
the exchange of GPRA and related information.
    So I think the wrong question has been asked here, and some 
assumptions have been made that in fact aren't borne out by the 
facts.
    Mr. Doolittle. And you two represent agencies that in fact 
are subagencies within the Department of the Interior, so I 
accept what you are telling me, that you in fact have the 
coordination going on.
    I will have to ask in writing from the Department of Energy 
if they are coordinating with the Department of the Army, the 
Bureau of Reclamation.
    Commissioner, you could probably tell us a little bit about 
that. Have they coordinated with the Bureau of Reclamation, as 
far as you are aware?
    Mr. Martinez. I am aware that some representatives from the 
power marketing associations have attended some of our 
workshops out west.
    Mr. Doolittle. Maybe if you could, for the record, 
supplement or amplify that answer if you have further 
information about what is going on there, but that would be an 
illustration of where you are dealing with entities that are 
not from the same department. Perhaps there isn't the level of 
coordination there as there is within the Department of the 
Interior agencies.
    Ms. Kladiva. I would underscore again, Mr. Chairman, that 
our point here is not that they just need to be talking with 
each other. We know that they coordinate on an operational 
basis from day to day in many cases, but what we are talking 
about here is this type of cross-cutting coordination and 
reaching agreement on the goals and objectives of the strategic 
plans. That is the part that we are talking about.
    We are talking about ratcheting it up above the working, 
everyday level.
    Mr. Doolittle. That is an important distinction. When you 
look at it like that, gentlemen, is it your belief that that 
level of coordination is going on or just the coordination that 
is essential for the everyday carrying out of activities?
    Mr. Eaton. I would argue that it is both from where we sit, 
and I would point out again, the program that I mentioned which 
is a formal partnership where we work together.
    I have real trouble with the idea that somehow, there is no 
coordination going on here, and let me refer back to the 
Natural Resources Performance Management Forum.
    That has been meeting on a regular basis and its membership 
includes NOAA and EPA and TVA and the Army Corps of Engineers, 
quite outside the Department of the Interior.
    Mr. Doolittle. Commissioner, what is your comment on that?
    Mr. Martinez. The point I was trying to make a while ago 
and maybe I didn't state it correctly is that there are some 
issues where this is probably possible, but there are different 
interests represented by different agencies that might be 
difficult to come around the table and come to closure.
    For instance, in the development of water projects, there 
are endangered species issues, there are water quality issues, 
EPA has certain concerns, the Bureau of Reclamation has certain 
concerns, and sometimes, you don't come to closure on those 
issues.
    I would find it very interesting to get all those agencies 
around the table and say we all want you to come to one 
conclusion on a goal of what should be the future of water 
development projects out west. I am saying that you probably 
would not be able to do that, so we have to be realistic as to 
where we are heading.
    Mr. Doolittle. Maybe this process can force some of those 
people to rethink their approaches.
    Mr. Martinez. It might be interesting to see what we get 
out of it.
    Mr. Doolittle. I think right now, it seems that you are 
basically saying that and I would agree that the network of 
laws and regulations appear to be in conflict, depending upon 
the agency. Is that your feeling, Commissioner, or have I not 
characterized that accurately?
    Mr. Martinez. I think, and again, I am speaking as an 
individual here. I think the authorities are pretty clear, but 
sometimes, people bring to the table different perceptions.
    Mr. Doolittle. I guess if this Act works as it is supposed 
to, it should focus on the results. We have to have available 
water, and we have to do it in a way that respects the 
environment and respects the opportunities for economic growth 
that are essential for maintaining conditions of economic 
prosperity. I would hope that this Act, by focusing on the 
results, would force us to operate a little bit differently 
maybe than we have been operating, because I don't think anyone 
can look at these resource or environmental controversies and 
feel good about how things are working in the government these 
days.
    I think the hope here is, and I guess this is your point, 
Ms. Kladiva, that to carry out the intent of GPRA as GAO has 
described, the agencies would need to reference each other in 
their strategic plans and clearly identify conflicts and 
overlaps.
    Ms. Kladiva. Absolutely.
    Mr. Doolittle. Let me ask our two witnesses remaining if 
that is something that you could take a look at as you proceed 
with your strategic plans to see if you could at least identify 
the conflicts and the overlaps?
    Mr. Eaton. Absolutely no problem there at all.
    Mr. Doolittle. Commissioner Martinez, I really think you 
made a lot of progress in that last draft, and I appreciate 
your sending that to us.
    One of the things that I would hope to get from all the 
agencies over which we have oversight is specific citations and 
statutory authority for each of the goals that you are 
identifying. I think that would be very useful.
    I think it would be useful to help us as policymakers focus 
in on what you are actually supposed to be doing, and if there 
are goals out there that don't have adequate statutory 
foundation, then I think those would need to be reviewed during 
an oversight hearing. Then, either the foundation would need to 
be provided through a law enacted, or if there are things that 
are supposed to be done that aren't being done, then I think 
this is how we as a Congress representing the people are able 
to accomplish the business of the American people.
    That would be of great benefit to us if you could provide 
that. I don't believe that is actually required by GPRA in the 
way I asked but I think it would be helpful when you write 
these plans to tell us what your goals are and so forth, that 
for each one, give us a footnote, which statute confers the 
authority to do that, and I think that would be something that 
I would appreciate having, and I think it would be useful to 
our Committee Members.
    Mr. Martinez. Mr. Chairman.
    Mr. Doolittle. Yes.
    Mr. Martinez. If I may, I think that is a point very well 
taken, and we tried to respond to that issue in our draft, but 
as you are aware, on Bureau of Reclamation, we have like 1,400 
pages of the laws, and in most cases, it is project-specific.
    Mr. Doolittle. I read that in your testimony, and I thought 
no wonder it is such a difficult problem.
    Mr. Martinez. We would like to work with the staff to see 
how we might be able to address that issue without giving you 
on each of the goals five pages of recitations to specific 
laws, but the intent, I think, is good and we should address 
that.
    Mr. Doolittle. Another thing that came up in another 
hearing I was in, if you believe this is a problem, I wish you 
would highlight it as to how it fits into one of these six 
points, but there is a sort of a tradition that has arisen 
around here, a longstanding one, of having report language that 
is inconsistent with the actual statutory language.
    That seems strange to me that we would operate in that 
fashion, because the only thing that is the law is what is in 
the statute, and yet the reports are oftentimes treated as if 
they were the law. I don't know if you feel that that is a 
problem as you administer your agencies, but I know I have had 
to introduce a bill--the report had the language we needed in 
it, but the law was ambiguous, so we are changing the law.
    Maybe in some cases, and I don't know what we would do with 
1,400 pages of law that you deal with, Commissioner, whether 
that is--each of these projects is basically a separate and 
specific thing, the way we do it. Am I correct?
    Mr. Martinez. That is correct. For the most part, that is 
correct.
    Mr. Doolittle. That is a good point. I think I have asked 
the questions I want to. There are many other questions that we 
could ask, and I think rather than take up your time on any 
additional questions I have, I will tender it in writing and 
ask you please to answer as possible, and we will hold the 
record open for the answers.
    I really appreciate the time that our witnesses have taken. 
I am sorry we had to wait so long to get started, and with 
that, the hearing will stand adjourned.
    [Whereupon, at 4:40 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]

    [GRAPHIC] [TIFF OMITTED] T5059.001
    
    [GRAPHIC] [TIFF OMITTED] T5059.002
    
    [GRAPHIC] [TIFF OMITTED] T5059.003
    
    [GRAPHIC] [TIFF OMITTED] T5059.004
    
    [GRAPHIC] [TIFF OMITTED] T5059.005
    
    [GRAPHIC] [TIFF OMITTED] T5059.006
    
    [GRAPHIC] [TIFF OMITTED] T5059.007
    
    [GRAPHIC] [TIFF OMITTED] T5059.008
    
    [GRAPHIC] [TIFF OMITTED] T5059.009
    
    [GRAPHIC] [TIFF OMITTED] T5059.010
    
    [GRAPHIC] [TIFF OMITTED] T5059.011
    
    [GRAPHIC] [TIFF OMITTED] T5059.012
    
    [GRAPHIC] [TIFF OMITTED] T5059.013
    
    [GRAPHIC] [TIFF OMITTED] T5059.014
    
    [GRAPHIC] [TIFF OMITTED] T5059.015
    
    [GRAPHIC] [TIFF OMITTED] T5059.016
    
    [GRAPHIC] [TIFF OMITTED] T5059.017
    
    [GRAPHIC] [TIFF OMITTED] T5059.018
    
    [GRAPHIC] [TIFF OMITTED] T5059.019
    
    [GRAPHIC] [TIFF OMITTED] T5059.020
    
    [GRAPHIC] [TIFF OMITTED] T5059.021
    
    [GRAPHIC] [TIFF OMITTED] T5059.022
    
    [GRAPHIC] [TIFF OMITTED] T5059.023
    
    [GRAPHIC] [TIFF OMITTED] T5059.024
    
    [GRAPHIC] [TIFF OMITTED] T5059.025
    
    [GRAPHIC] [TIFF OMITTED] T5059.026
    
    [GRAPHIC] [TIFF OMITTED] T5059.027
    
    [GRAPHIC] [TIFF OMITTED] T5059.028
    
    [GRAPHIC] [TIFF OMITTED] T5059.029
    
    [GRAPHIC] [TIFF OMITTED] T5059.030
    
    [GRAPHIC] [TIFF OMITTED] T5059.031
    
    [GRAPHIC] [TIFF OMITTED] T5059.032
    
    [GRAPHIC] [TIFF OMITTED] T5059.033
    
    [GRAPHIC] [TIFF OMITTED] T5059.034
    
    [GRAPHIC] [TIFF OMITTED] T5059.035
    
    [GRAPHIC] [TIFF OMITTED] T5059.036
    
    [GRAPHIC] [TIFF OMITTED] T5059.037
    
    [GRAPHIC] [TIFF OMITTED] T5059.038
    
    [GRAPHIC] [TIFF OMITTED] T5059.039
    
    [GRAPHIC] [TIFF OMITTED] T5059.040
    
    [GRAPHIC] [TIFF OMITTED] T5059.041
    
    [GRAPHIC] [TIFF OMITTED] T5059.042
    
    [GRAPHIC] [TIFF OMITTED] T5059.043
    
    [GRAPHIC] [TIFF OMITTED] T5059.044
    
    [GRAPHIC] [TIFF OMITTED] T5059.045
    
    [GRAPHIC] [TIFF OMITTED] T5059.046
    
    [GRAPHIC] [TIFF OMITTED] T5059.047
    
    [GRAPHIC] [TIFF OMITTED] T5059.048
    
    [GRAPHIC] [TIFF OMITTED] T5059.049
    
    [GRAPHIC] [TIFF OMITTED] T5059.050
    
    [GRAPHIC] [TIFF OMITTED] T5059.051
    
    [GRAPHIC] [TIFF OMITTED] T5059.052
    
    [GRAPHIC] [TIFF OMITTED] T5059.053
    
    [GRAPHIC] [TIFF OMITTED] T5059.054
    
    [GRAPHIC] [TIFF OMITTED] T5059.055
    
    [GRAPHIC] [TIFF OMITTED] T5059.056
    
    [GRAPHIC] [TIFF OMITTED] T5059.057
    
    [GRAPHIC] [TIFF OMITTED] T5059.058
    
    [GRAPHIC] [TIFF OMITTED] T5059.059
    
    [GRAPHIC] [TIFF OMITTED] T5059.060
    
    [GRAPHIC] [TIFF OMITTED] T5059.061
    
    [GRAPHIC] [TIFF OMITTED] T5059.062
    
    [GRAPHIC] [TIFF OMITTED] T5059.063
    
    [GRAPHIC] [TIFF OMITTED] T5059.064
    
    [GRAPHIC] [TIFF OMITTED] T5059.065
    
    [GRAPHIC] [TIFF OMITTED] T5059.066
    
    [GRAPHIC] [TIFF OMITTED] T5059.067
    
    [GRAPHIC] [TIFF OMITTED] T5059.068
    
    [GRAPHIC] [TIFF OMITTED] T5059.069
    
    [GRAPHIC] [TIFF OMITTED] T5059.070
    
    [GRAPHIC] [TIFF OMITTED] T5059.071
    
    [GRAPHIC] [TIFF OMITTED] T5059.072
    
    [GRAPHIC] [TIFF OMITTED] T5059.073
    
    [GRAPHIC] [TIFF OMITTED] T5059.074
    
    [GRAPHIC] [TIFF OMITTED] T5059.075
    
    [GRAPHIC] [TIFF OMITTED] T5059.076
    

</pre></body></html>
